<html>
<title> - [H.A.S.C. No. 114-32] COMBAT AVIATION MODERNIZATION PROGRAMS AND THE FISCAL YEAR 2016 BUDGET REQUEST</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 114-32]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                     COMBAT AVIATION MODERNIZATION

            PROGRAMS AND THE FISCAL YEAR 2016 BUDGET REQUEST

                               __________

                              HEARING HELD
                             MARCH 26, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     


                                     
  
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-234                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cook, Hon. Paul, a Representative from California, Vice Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1
Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     8

                               WITNESSES

Grosklags, VADM Paul A., USN, Principal Military Deputy to the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition), U.S. Navy; LtGen Jon M. Davis, USMC, Deputy 
  Commandant for Aviation, U.S. Marine Corps; and RADM Michael C. 
  Manazir, USN, Director, Air Warfare (OPNAV N98), U.S. Navy.....     2
Holmes, Lt Gen James M. ``Mike,'' USAF, Deputy Chief of Staff, 
  Strategic Plans and Requirements, Headquarters, U.S. Air Force.     4
Ray, Maj Gen Timothy M., USAF, Director of Global Power Programs, 
  Office of the Assistant Secretary of the Air Force for 
  Acquisition, Headquarters, U.S. Air Force......................     6

                                APPENDIX

Prepared Statements:

    Grosklags, VADM Paul A., joint with RADM Michael C. Manazir 
      and LtGen Jon M. Davis.....................................    25
    Pawlikowski, Lt Gen Ellen M., USAF, Military Deputy, Office 
      of the Assistant Secretary of the Air Force, Acquisition, 
      joint with Lt Gen James M. ``Mike'' Holmes.................    67

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. McSally..................................................    97

Questions Submitted by Members Post Hearing:

    Mr. Turner...................................................   101
 
                        [H.A.S.C. No. 114-32]    
    
    
COMBAT AVIATION MODERNIZATION PROGRAMS AND THE FISCAL YEAR 2016 BUDGET 
                                REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Thursday, March 26, 2015.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
room 2118, Rayburn House Office Building, Hon. Paul Cook (vice 
chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. PAUL COOK, A REPRESENTATIVE FROM 
  CALIFORNIA, VICE CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Mr. Cook. The hearing will come to order. The subcommittee 
today meets to receive testimony on the Navy, Marine Corps, and 
Air Force budget requests for combat aircraft programs for 
fiscal year 2016.
    I would like to welcome our distinguished panel of 
witnesses today, Vice Admiral Paul Grosklags, Principal 
Military Deputy to the Assistant Secretary of the Navy, 
Research Development and Acquisition. And we just had a hearing 
once again. So we are wearing you out, Admiral. Lieutenant 
General Jon M. Davis, Deputy Commandant of the Marine Corps for 
Aviation; Rear Admiral Michael C. Manazir, Director of Air 
Warfare Division for the U.S. Navy; Major General Timothy M. 
Ray, Director, Global Power Programs; and Lieutenant General 
Mike Holmes, Air Force Deputy Chief of Staff for Plans and 
Requirements.
    First of all, I thank you for all your service and look 
forward to the testimony today.
    As we review the fiscal year budget request for combat 
aviation forces, it is clear the Budget Control Act [BCA] of 
2011 continues to force the military to make short-time 
decisions that have long-term consequences on our national 
security.
    It is clear that the combat aviation programs of the Navy, 
Marine Corps, and Air Force are confronted by tradeoffs in 
capability, capacity, and readiness. Capabilities are those 
modernization programs that provide the systems necessary to 
defeat current and future threats. Capacity is the ability to 
retain sufficient force structure to meet current and future 
requirements. And readiness is the training in these systems.
    The Navy and Marine Corps are facing shortfalls in fighter 
aircraft for fiscal year 2016. The Navy deferred 16 F-35s in 
the future defense program, trading capability for today's 
readiness. The Navy has truncated its procurement of F/A-18E/F 
aircraft, also trading capacity for readiness.
    Now the Navy will be 134 aircraft below its requirements of 
fighter aircraft in the 2020 timeframe, with an average of 
about 100 aircraft short between now and 2020. If we assume 
that a shortfall of 65 aircraft will be manageable for the 
Navy, this leaves the Navy short about 35 aircraft, or 3 
squadrons of strike fighters.
    Last year, the Air Force canceled the F-16's combat 
avionics program extension, or CAPES. CAPES would have equipped 
the block 40, 42, 50, and 52 fleets with new radars and defense 
systems that increase survivability against emerging threats. 
This trade was made to meet today's readiness requirements. 
This year, as it did last year, the Air Force is proposing to 
retire over half of its A-10 fleet, reducing fighter capacity 
below the Air Force's 2,000-aircraft requirement.
    Increasing the OCO [overseas contingency operations] 
funding request to offset the solution is something that you 
have seen in the papers, on the news. There was a critical vote 
taken last night. I am proud to say I think it went the right 
way. We didn't get the complete fix that many people, such as 
myself, wanted. But this is a beginning. And, of course, the 
ideal solution from my standpoint is to repeal the sequester.
    But this is not going to happen with the deal. But as I 
said, we did get part of the pie. And we've got to continue 
this. And much of your testimony, many of you have been here 
before. And it is not just this committee that has to hear 
this, it is the rest of Congress. I am concerned that this 
budget request will reduce both capacity and, in our strike 
fighter forces, affect readiness and result in a higher risk in 
achieving military objectives in the future.
    I look forward to our service witness testimony today, 
which I hope will expand on the risks associated with the 
capacity and capability reductions in our combat aviation 
forces.
    I was going to turn to Ms. Sanchez. I think she is running 
a little late. But when she is--when she gets here, I will ask 
her to make an opening statement as the ranking member.
    And without objection, all witnesses' prepared statements 
will be included in the hearing record.
    Admiral Grosklags, will you please proceed with your 
opening statement, followed by the rest of the panel as we go 
down. Thank you.

 STATEMENT OF VADM PAUL A. GROSKLAGS, USN, PRINCIPAL MILITARY 
   DEPUTY TO THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
 DEVELOPMENT, AND ACQUISITION), U.S. NAVY; LTGEN JON M. DAVIS, 
 USMC, DEPUTY COMMANDANT FOR AVIATION, U.S. MARINE CORPS; AND 
  RADM MICHAEL C. MANAZIR, USN, DIRECTOR, AIR WARFARE (OPNAV 
                        N98), U.S. NAVY

              STATEMENT OF VADM PAUL A. GROSKLAGS

    Admiral Grosklags. Thank you, Mr. Chairman, distinguished 
members of the subcommittee. We appreciate the opportunity to 
appear before you today to address our Navy and Marine Corps 
aviation programs.
    As you well know, the United States is a maritime nation. 
We have global interests and global responsibilities. Our Navy 
and Marine Corps provide the continuously forward-deployed 
persistent presence which ensures our Nation's global reach, 
global access, and ability to project power, regardless of 
changing alliances, permissions, or circumstances on the 
ground.
    We move at will across the world's oceans, the seas, and 
the littorals, providing our Nation's leaders with offshore 
options where it matters and when it matters. The aviation 
component of our Navy and Marine Corps team enables our sea-
based and expeditionary naval forces to bring simultaneous 
influence over vast stretches of maritime environment, across 
the shoreline, and deep inland.
    As such, it is critical that our aviation forces remain 
always ready and poised to engage in a moment's notice, with 
the required capacity and capability to influence events and, 
if necessary, to fight and to win.
    Last year, we saw significant advancements in many of our 
aviation programs: the first P-8 deployment to the Western 
Pacific; the standup of a second Special Purpose MAGTF [Marine 
Air-Ground Task Force] formed around the capabilities of the V-
22 and the KC-130J; initial qualification of the Joint Strike 
Fighter onboard an aircraft carrier.
    This year, we look forward to a number of additional 
milestones, to include the initial operational capability [IOC] 
of the F-35B with the Marine Corps; initiation of sensor 
testing on our MQ-4C Triton ISR [intelligence, surveillance, 
and reconnaissance] platform; the first flight of the Marine 
Corps CH53K by the end of this year; our first deployment of 
the the E-2D Hawkeye started this month on the Theodore 
Roosevelt. Along with the Air Force, we have declared initial 
operational capability for the AIM-120D and will IOC the AIM-9X 
Block II this month.
    For 2016, our naval aviation budget request is based on a 
number of central themes: fifth generation fighter and attack 
capability; netted persistent multi-role intelligence, 
surveillance, and reconnaissance; critical supporting 
capabilities in electronic attack, maritime patrol, and 
vertical lift; advanced strike weapons programs; readiness 
recovery; and targeted modernization of the force to ensure 
continued relevance and sustainability.
    As this subcommittee is well aware, while our security 
interests face an increasing array of threats and demands, our 
budget position grows ever more challenging. We will continue 
to prioritize the readiness of the forces currently forward 
deployed over all other investments. However, we must also 
recognize that those Navy and Marine Corps forces this Nation 
deploys to meet the future threat will be dependent upon the 
modernization and the readiness efforts provided by the 
programs of today.
    Across the Department, our strategies for the development, 
procurement, and sustainment of both current and future weapon 
systems are critically dependent upon stable and--excuse me--
predictable funding at a level commensurate with our 
President's Budget 2016 [PB16] budget request.
    The alternative has been made clear by our secretaries and 
our service chiefs. A smaller force, a force less forward 
deployed, a force slower to respond in a crisis, and a force 
which, when it does respond, will be less capable and more 
vulnerable.
    Mr. Chairman, we request your leadership and the support of 
this subcommittee to provide the resources that enable your 
Navy and Marine Corps to be our Nation's first responders. We 
again thank you for the opportunity and look forward to your 
questions.
    [The joint prepared statement of Admiral Grosklags, Admiral 
Manazir, and General Davis can be found in the Appendix on page 
25.]
    Mr. Cook. Thank you, Admiral.
    General Davis.
    General Davis. Admiral Grosklags spoke for the Department, 
sir.
    Admiral Grosklags. One statement for the Department, sir.
    Mr. Cook. Thank you.
    Admiral.
    Admiral Manazir. Yes, sir. Same thing. One statement for 
us.
    Mr. Cook. Okay. General.

  STATEMENT OF LT GEN JAMES M. ``MIKE'' HOLMES, USAF, DEPUTY 
CHIEF OF STAFF, STRATEGIC PLANS AND REQUIREMENTS, HEADQUARTERS, 
                         U.S. AIR FORCE

    General Holmes. Thank you, Chairman Cook, ladies and 
gentlemen of the committee. Thank you for your continued 
support to your United States Air Force, our airmen, and their 
families. I greatly appreciate the opportunity to address the 
subcommittee today. And I would like to start with a few 
opening remarks, and then we will ask that our full written 
testimony be placed in the record. And thank you for agreeing 
to that.
    Our Air Force remains the most globally engaged Air Force 
on the planet. And we continue to do our best every day to 
deliver global vigilance, global reach, and global power for 
America. However, after more than 25 years of sustained combat 
operations and years of constrained budgets, it has become more 
difficult to achieve our mission.
    The President's fiscal year 2016 budget and the budget 
levels there take some steps to improve the situation. But our 
ability to meet the objectives of the national defense strategy 
is increasingly at risk. The President's budget levels work to 
maximize the contributions of our total force, Guard, Reserve, 
and Active; reinforce investments in nuclear deterrents and 
space control operations; emphasize global long-range and non-
permissive capabilities; and preserve the Air Force's top three 
procurement programs, the F-35, the KC-46, and the long-range 
strike bomber.
    It also gives us the ability to halt reduction us in total 
force end strength and relieve pressure on our most important 
weapon, our airmen, continue efforts to regain full-spectrum 
readiness, and lay the groundwork for future innovation efforts 
with seed investments.
    After subtracting pass-through, the Air Force share of the 
2016 defense budget is roughly 22 percent. Within this share of 
defense resources, the Air Force submission attempts to balance 
risk driven by shortfalls in capacity, readiness, and 
modernization that you describe well, Mr. Chairman, to provide 
global vigilance, reach, and power in support of the defense 
strategy both today and in the future.
    Shortfalls in capacity mean we must accept some risk in our 
ability to do everything we are expected to do. And the first 
of many difficult capacity decisions is the decision to divest 
the A-10. There is no question that the A-10 has been a steady 
and stellar performer in recent conflicts. Nevertheless, our 
current force structure is simply unaffordable in today's 
fiscal environment.
    Consistent with fiscal year 2015 Department of Defense 
guidance to accept risk in current force structure and favor 
multi-role aircraft to satisfy Defense Strategic Guidance, the 
fiscal year 2016 Presidential budget again reflects the hard 
choice to divest the A-10. Divesting the entire A-10 fleet 
frees up $4.7 billion across the Future Years Defense Program 
[FYDP], providing funding for priority capacity, capability, 
and readiness needs.
    Next, budget realities have forced the Air Force to make 
the decision to reduce the EC-130 Compass Call fleet by nearly 
half after fiscal year 2015, providing a $470 million savings 
across the FYDP that we have applied toward enterprise 
capability upgrades.
    While the Air Force will maintain essential capabilities to 
support current combat operations, this decision is not without 
risk. Once the fleet size drops to eight aircraft in fiscal 
year 2016, we will only be able to support our current 
operational obligations.
    We face another significant capacity challenge in preferred 
munitions, for 3 years of constrained budgets have left the Air 
Force thousands of weapons short in both air-to-surface and 
air-to-air weapon inventories. To begin to address these 
munitions capacity shortfalls, the fiscal year 2016 President's 
budget provides $1.8 billion in fiscal year 2016 and $7.3 
billion over the FYDP to increase procurement rates.
    As we attempt to balance these capacity demands, we 
continue to face shortfalls in readiness that are the result of 
previous funding gaps and sustained high operations tempo. The 
strain on training programs, weapon systems sustainment, and 
deployed-to-dwell rates directly impacts our ability to provide 
fully mission-ready units to the combatant commanders. These 
readiness shortfalls continue to exacerbate the capacity 
shortfalls.
    In addition to shortfalls in capacity and readiness, the 
Air Force faces shortfalls in critical capabilities. This means 
potential adversaries are closing the capability gaps that 
separate the U.S. military from potential foes. And this 
narrowed capability gap adds future risk to both mission and 
forces.
    The Air Force's fighter fleet is approaching an average age 
of 30 years, the oldest in the history of the Air Force. The 
fourth generation F-15s and F-16s that comprise the majority of 
our fighter fleet require upgrades to both extend their 
lifespan and provide the combat capability required to prevail 
in today's increasingly contested environments.
    The advanced capabilities of our fifth generation fighters, 
the F-22 and F-35, are critical to ensure our ability to fight 
and win in contested environments. And divesting the A-10 
allows us to invest $4.9 billion across the FYDP in F-16 and F-
15 modernization and service life extensions, and $600 million 
across the FYDP to ensure we maintain the operational 
superiority of the F-22 against rapidly improving threats.
    The multi-role F-35A is the centerpiece of our future 
fighter precision attack capability. It is designed to 
penetrate air defenses and deliver precision-guided munitions 
in an increasingly contested threat environment. The FY16 PB 
includes $6.7 billion for procurement and development of 44 F-
35As.
    Two decades of continual operations, coupled with 
constrained and unstable budgets, have taken their toll on our 
Air Force and our airmen. In anticipation of even greater 
challenges, we have developed a strategy-driven, resource-
informed plan to guide the way our service organizes, trains, 
and equips to prepare for future operations. Our revised 
strategic planning and programming process will look beyond the 
FYDP, out to 20 years into the future, allowing us to identify 
and shape decisions in advance to provide agile and adaptable 
weapon systems and processes.
    Our fiscal year 2016 budget takes steps to balance the many 
challenges we face in capacity, capability, and readiness. Any 
return to sequestration-level funding will directly impact all 
three areas, leaving us smaller, less ready, with less of an 
advantage over our potential adversaries.
    Thank you, Mr. Chairman, ladies and gentlemen of the 
committee, for your continued support of our Air Force and the 
opportunity to discuss with you as we work together to face 
these challenges.
    We look forward to your questions. And with your 
permission, I will yield to my colleague, Major General Ray, 
for a few comments.
    [The joint prepared statement of General Holmes and General 
Pawlikowski can be found in the Appendix on page 67.]

 STATEMENT OF MAJ GEN TIMOTHY M. RAY, USAF, DIRECTOR OF GLOBAL 
 POWER PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR 
      FORCE FOR ACQUISITION, HEADQUARTERS, U.S. AIR FORCE

    General Ray. Thank you, Chairman Cook, and members of the 
committee. My apologies for General Pawlikowski's inability to 
make it here today. So I will be testifying on her behalf.
    It is an honor to be here. And I thank you for the 
opportunity to testify before the committee on the subject of 
aircraft modernization, an area that is critical to the future 
of our Air Force and our Nation. It is also an honor to share 
the witness table with my fellow airmen--Lieutenant General 
Holmes, and certainly, my colleagues from the Department of the 
Navy.
    General Holmes described for you the challenges the Air 
Force faces in achieving our mission with years of constrained 
budgets. He shared with you the choices we made to balance 
capacity, readiness, and modernization. I would like to focus 
my remarks on modernization.
    Given the current budget realities, we must make wise 
fiscal decisions that allow us to remain the premier air force 
in the world. These decisions must include how best to 
modernize the existing fleet, while sustaining our ability to 
keep the aircraft development programs we have on record on 
track.
    Now more than ever, we must continue investing in the 
science and technology in modernizing our capabilities. Our 
fiscal year 2016 budget reflects the Air Force priorities in 
these areas. Our Air Force fighter force modernization 
continues to place a priority on continuing the development of 
the F-35, and the fiscal year 2016 budget requests a purchase 
of 44 aircraft.
    The budget also includes modernization efforts for the F-22 
for improved air-to-ground capabilities and capabilities to 
counter the advancing threat with improved electronic 
protection and air-to-air missile capabilities. We will also 
invest approximately $2.2 billion across the FYDP for the F-15 
fleet. This includes service life extensions, integration of 
the latest precision weapons, and greater modernizations. For 
the F-16, we will invest approximately $1 billion across the 
service on the service life extension, operational flight 
program enhancements, and upgrades to the mission processors.
    We have also included recapitalization of the Joint STARS 
[Surveillance Target Attack Radar System] fleet and continue 
the combat rescue helicopter. Another focus area is our effort 
to overcome shortfalls in our munitions inventories, as General 
Holmes mentioned.
    The fiscal year 2016 President's budget makes important 
investments in science and technology [S&T]. We continue to 
focus our S&T investments on technologies that will enable us 
to modernize our capabilities while exploring game-changing 
technologies for the future. The current global security 
environment is more complex, dynamic, and uncertain than ever 
before. Our adversaries are developing technologies and 
capabilities that attempt to shape and deter our Nation.
    We recognize we cannot maintain our edge through technology 
alone. It will require fresh thinking, innovation regarding how 
we acquire and manage our acquisition process. The Air Force 
strategic vision, ``A Call to the Future,'' speaks to our need 
for strategic agility, which means our modernization efforts 
must provide us the ability to rapidly act.
    Toward that end, our acquisition enterprise is pursuing 
agile techniques, such as open systems, modularity, designing 
in resiliency, prototyping and experimentation. In particular, 
we will capitalize on these techniques in the Joint STARS recap 
and our new trainer, the T-X.
    Finally, we will continue our focus on affordability. 
Affordable systems are critical to providing the right balance 
between capacity and modernization. In conclusion, our 
modernization efforts are critical to the future of the Air 
Force. We believe that we have made prudent investments in 
modernization, while continuing a strong science and technology 
investment. We must constantly strive to be better stewards of 
taxpayers resources, making every dollar count in achieving 
maximum buying power for our investments.
    We must continue to institute service-wide efficiencies 
that will capitalize on innovative concepts, keep weapon 
systems on track, and build affordability into new systems.
    Mr. Chairman with your committee's help, working together, 
we will remain the world's greatest air, space, and cyber 
force. We look forward to your questions. Thank you.
    Mr. Cook. Well, I want to thank the panel very much.
    And at this time, I would like to welcome the ranking 
member, Ms. Sanchez, who has joined us. And she has an opening 
statement, I believe.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Sanchez. Thank you, Mr. Chairman. So nice to have a 
Californian chairing today. I am sorry I was late, gentlemen; I 
was doing the C-SPAN show this morning and didn't get over in 
time.
    This year's budget is up significantly for all three 
services compared to fiscal year 2015. In the Navy, we have a 
$1.3 billion increase above 2015 levels. In the Air Force, a 
$3.2 billion increase. Of course, this is all going to depend 
on the whole process that we have here in the Congress and 
where we end up. Also, with respect to sequestration, what goes 
on there.
    In addition to increased funding, the Air Force has 
deferred the potential retirement of a number of intelligence, 
surveillance, and reconnaissance aircraft. We see the E-8 Joint 
STARS, the E-3 AWACS [Airborne Warning and Control System], and 
the U-2 aircraft have all been postponed until after 2019.
    The Air Force also has increased funding sustainability for 
MQR Reaper unmanned aircraft. But I also want to note to our 
committee that you--the services also made some difficult 
choices. I see that you are still proposing to retire the A-10 
over the next 4-year period in an effort to save about $4 
billion. And the Navy has not requested additional production 
of the F/A-18 Super Hornets. And it has cut 16 F-35C aircraft 
over its 5-year budget.
    So I look forward to hearing from you how you came to those 
decisions and what that--whether that really needs to stay in 
place in order for you to get to where you think you need to 
be.
    Both services have also requested increased amounts of 
funding for aerial munitions of almost all categories; 
traditional bombs, long-range precision-guided missiles, et 
cetera. I would also like to point out that many of these 
aerial weapons programs are actually performing very well. And 
they are under cost, they are in schedule, and they are on 
performance targets. So that is a good thing.
    For example the, AIM-120D and the the AIM-9X Block II air-
to-air missiles have emerged from operational testing with 
outstanding results. I mean, there is some good news in what 
you all are doing. Both programs are critical to maintaining 
U.S. air superiority in any future conflicts, so it is 
important to get them right.
    It is also worth noting that these are joint programs 
between Air Force and Navy. And I also like to see when that 
happens. Because hopefully over time, maintenance and operation 
is also lowered.
    We are going to have in April a hearing on the F-35 
program, obviously. It is the big elephant in the room in so 
many ways. But I think it is still relevant to the overall 
topic today of the budget. And while I know that we need the F-
35 program, it is the only production plane that we have for 
our future that we have got, there are still some concerns 
about the developing--the development and the timing and the 
testing of this aircraft.
    I am worried about the serious engine fire that we had last 
year. It is a concern because there is just one engine that we 
have. And so we need to get to the bottom of what happened. 
Hopefully, it was just an isolated incident. But we need to 
figure that out.
    And secondly, the F-35 is entering one of the--what I think 
is one of the most difficult stages, and that is where we see 
all the software and the integration and everything come 
together. And this fusion is incredibly important and, from 
what I am hearing, may not be going as well as we had hoped. So 
I hope you will enlighten us a little bit where you can on 
that.
    So the engine and the software, very, very critical pieces 
of making sure that we get this aircraft going and online and 
tested and flown and, you know, for the future of not only our 
services, Mr. Chairman, but I have talked to a lot of our 
international partners who have signed up for these aircraft. 
And they are constantly asking me are we going to get this 
done.
    So I appreciate the time. And I look forward to the answers 
today.
    Mr. Cook. Thank you, Ms. Sanchez.
    General Davis, a report on Monday of this week by Bloomberg 
said that flight testing of software essential to delivering 
the plane's promised capabilities was supposed to be completed 
last month, but now may take until mid June. And that 
deficiency will be fixed later this year and aren't severe 
enough to delay the Marine Corps' declaration.
    General Bogdan is quoted as saying the service understands 
the limitation and has operational workarounds to ensure they 
have the capability they need. What are those limitations, and 
what is the operational impact if the Marine Corps declares its 
F-35 initial operational capability this summer?
    General Davis. Mr. Chairman, thanks for letting me answer.
    First off, the F-35 for us, for our Nation, for our Marine 
Corps, is going to give us a fifth-generation, first-day 
capability, the ability to go take off from amphibious ships 
and also land on 3,000-foot ships. So wherever our marines are 
fighting, they get the--a great combat capability. In a lot of 
ways, more than--a lot more than we have today with our legacy 
fleet.
    I will answer a couple things. And actually, if I could, to 
Congresswoman Sanchez's question, as well, on the engine. 
Because I think that is applicable as well. The engine we are 
seeing right now is very reliable. We got 10,000 hours on the 
motor. We did have one problem last summer that we believe we 
have corrected. I talked to the pilots and the squadron 
commanders who were flying this airplane last night. A very 
reliable motor from our perspective, to include the lift fan.
    On the fusion capability, we talked about--and the software 
capability you talked about--we are seeing--we are tracking 
about 13 different categories inside our program to make sure 
that we have got this thing on track. From the fusion, in the 
software, we are actually seeing what we need and tracking for 
what we need to declare initial operating capability in July of 
this year.
    We still have more test points to get. We take it to the 
ship in May. And we won't declare IOC until we have all those 
conditions met for this airplane. But on the software side, one 
of the complaint--one of the things is four-ship fusion. We do 
have some issues right now with four-ship fusion. That is four 
airplanes in the missionary data link that would share 
information together real-time.
    What we don't have--we found out we do have a problem with 
some latency with the four-ship fusion. But we do not have a 
problem with two-ship fusion. So right now, ship one and two 
and ship three and four can share information very, very 
readily. It is something we can't do today. So it is a combat 
capability we don't have today that we do have now with this 
airplane. And we are sharing information between the first 
section and the second section through Link 16. That is working 
very well for us.
    The close air support [CAS] software is actually working 
very well. We are able to, by working through the APG-81 radar, 
take a bomb through the clouds, which we can't do right now. So 
doing close air support through the clouds. We are able to take 
voice nine-line briefs. And also, with our 2B software on-track 
for a VMF [variable message format] data link to basically take 
the CAS briefs through the VMF.
    The software through the EOTS, which is our Electro-Optical 
Targeting System, is allowing us to actually do night close air 
support, track moving targets, and also have better fidelity 
than our FLIR [Forward-Looking Infrared radar], than our 
LITENING Pod in our legacy aircraft right now.
    So many--the ALIS [Autonomic Logistics Information System] 
system, we talked about the software as well, again, that is 
tracking as per what we need for an IOC. With one workaround, 
which is a--requiring a human, a contractor, to use a laptop 
computer for the propulsion system modifications. The mission 
data files, we will know more on that. We just got our first 
area of responsibility on data load now. And we are going to 
test that this--this month out at the weapon school out in 
Yuma, Arizona. So we are going out there. I will be out there 
tonight. But our pilots will fly for 30 days testing that 
mission data file.
    So on the software side, what we are seeing--and I talked 
to the squadron commanders and the guys that were flying it 
last night in preparation for today's testimony to give you 
ground truth with the pointy end of the spear. They are very, 
very comfortable with what they have got right now. As good 
marines, they would always want more. But we are seeing 
actually an improved combat capability from what we have in 
legacy today, much better. And we think we have got a good 
software load, stable software load for this airplane to 
declare an IOC.
    Mr. Cook. Thank you. I was gonna throw it open to the 
panel, whether they wanted to also address the issue of the 
single engine. And Ms. Sanchez also raised some other subjects. 
So we can break it down right now. If anybody wants to jump in 
right now, feel free.
    Admiral Grosklags. Sir, I will talk real briefly about the 
engine and without diving too far--it is on. Yes. I will speak 
louder.
    I will touch on the engine. But I don't want to take too 
much time to dive too deeply into the technology piece. But 
that occurred last summer. We had a--we very quickly identified 
the root cause. There was two components rubbing on each other 
internal in the engine, created a lot of heat, and thus a 
failure. That root cause was identified.
    Some restrictions were put on the fleet while we searched 
for corrections to that. We have essentially two temporary 
fixes in place today that allow the fleet to continue to fly 
across all type model series. Depending on the degree of the 
correction they have had, equates to the amount of flight 
envelope that they are able to utilize.
    The long-term fix is still being worked with Pratt & 
Whitney, the engine manufacturer. But other than the, I will 
call it temporary disruption to our test program, where we had 
to basically stop flying for a few days and then bring things 
back on slowly. As General Davis noted, the aircraft are back 
flying. They are flying real-world-type training missions. And 
the engine is performing the way we expect it to.
    General Holmes. Thank you, Mr. Chairman. I think General 
Davis and Admiral Grosklags did a great job of describing the 
progress, both in the software and the engine issue. I would 
just note that the investigation into the engine was something 
new for us as we worked together among the three services and 
the partners to make sure that everybody knew what was going 
on, that everybody was aware of what we were finding, and that 
everybody was involved in the decision.
    So we did a joint safety board and a joint accident 
investigation board that let us all understand where we were in 
the process and be able to adjust. It has had a little bit of 
an impact in delay on testing program. Because when we 
temporarily grounded the aircraft and reduced their flight 
envelope as we worked through the issues, it delayed some of 
the test points.
    The JPO [Joint Project Office] has been dedicated to 
supporting the Marine effort to reach IOC. And we are happy to 
help with that effort. We know that they plan to reach it 
first, and we have worked together with them to do that. And we 
look forward then to progressing toward our IOC sometime next 
year then.
    Mr. Cook. Thank you. Mr. Norcross.
    Mr. Norcross. Thank you, Chairman. Appreciate the time. And 
welcome to the panel. Certainly appreciate your service.
    I was recently down in Pomona near Atlantic City visiting 
our unit there, the Air National Guard, and they are running F-
16s out of there. And time after time, their fliers and 
certainly the mechanics were asking me about the potential 
upgrades to the radar system. I am not sure General Ray or 
Holmes, who is better able to address that.
    What is the schedule for that? They certainly are at wits' 
end waiting for that upgrade, which they had indicated been 
postponed several times. Thank you.
    General Holmes. So thank you, sir, for that question. With 
your permission, we will both answer a couple of parts of it.
    So we canceled the CAPES program, as the chairman said, 
because it was unaffordable at our current budget level. We 
have received, as I am sure you know, a joint urgent 
operational needs request from USNORTHCOM [U.S. Northern 
Command] to take a look at how we might rapidly equip the F-16s 
that defend our Nation with advanced electronically scanned 
antenna radar, with an AESA radar that provides increased 
capability to those airplanes.
    As we look at that the request, that is important for that 
organization, but it is also part of an entire kill chain that 
would have to be in place to be able to let it operate. So you 
need both the sensor on the airplane, and then you need a 
surveillance system that would help you detect the kind of 
small cross-section threats that AESA radar gives you 
capability for, and you need the command and control system to 
be able to do it.
    Those elements are falling in place here in the National 
Capital Region. And we expect to try to move forward to provide 
a rapid capability there first, and then see how we would 
expand it across the country. And I will ask General Ray to 
talk about the details of that timeline and process.
    General Ray. Good morning, sir. Thank you for the question.
    We are looking very closely at the capabilities that are 
required. We take this mission very seriously, defending the 
Nation's skies. Looking at the F-16 and the options that we 
have in front of us, we want to make very clear in our minds 
that we are not limiting the capabilities in any efforts that 
we take on.
    So any of the capabilities that are out there now, existing 
radars, our ability to integrate that completely and to make a 
complete upgraded aircraft, is a very lengthy period of time. 
So to meet the UON [urgent operational need] timelines, which 
is in the next 18 months, we have to look at putting radars on 
the airplanes. But we may lose some capabilities over what we 
actually have right now. So we want to strike the very careful 
balance between bringing on what we require for this specific 
mission and not making the capabilities of the airplane less.
    Now, we believe that we should have a decision here in the 
next month or two in terms of exactly how we will do that. We 
are looking at a couple of options in terms of how we would 
acquire that. And certainly, there are several different 
amounts of capability that we can add over time. I believe that 
we should have a pretty good schedule here in the next 1 to 2 
months that would describe how we will get after this problem.
    I think that, as General Holmes mentions, the National 
Capital Region is the easier part in terms of the entire kill 
chain. We remain concerned about the coverage for the rest of 
the country and the rest of the F-16 fleet. So I think that 
makes us focus very close here to the Washington, DC, area and 
what we need to cover this area with the follow-on effort to go 
think through how best we will equip those airplanes in the 
future.
    Mr. Norcross. Appreciate your answer. We are trying very 
much to give you your needed predictability. Obviously, 
yesterday was the first step in a process that hopefully at 
some point before the end of this year gives you the 
predictability you need. I would suggest to you that that unit, 
they need predictability. Obviously, you know the area that 
they cover between New York and DC is vital. And certainly, 
they have a history that they remember very much as to the 
people who live along there. So anything you can do to expedite 
that, we would appreciate. Thank you.
    Mr. Cook. Thank you. Yes, Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your time today and your 
testimony. Really appreciate it.
    General Holmes, wanted to follow up on the discussions on 
the A-10. Last cycle you stated--or the Air Force stated--there 
was a savings of $4.2 billion to divest in the A-10. And today 
you said $4.7 billion, and then another time $4.9 billion. Can 
you just confirm what the number is?
    General Holmes. Yes, ma'am. Thank you. The number is $4.7 
billion, is what we are bringing this year.
    Ms. McSally. Okay.
    General Holmes. $4.2 of that is O&M [operation and 
maintenance] savings and $500 million of it is cost avoidance 
on wing upgrades.
    Ms. McSally. Okay. Great. Thank you. And can you confirm 
that this is primarily a budget decision, and not a 
capabilities decision?
    General Holmes. Yes, ma'am.
    Ms. McSally. Okay. Great. Thank you. And can you, just for 
everybody's awareness, give a rundown of a typical combat load 
of the F-35, standard combat load?
    General Holmes. Yes, ma'am. When the F-35 reaches its 
initial operation capability, it will have the capability to 
carry internally two air-to-air weapons and two air-to-grounds 
weapons. When it--it will have the radios and the digital 
communications to be able to communicate with folks on the 
ground. When it reaches its FOC [full operational capability], 
then it will have the ability to carry heavier JDAMs [Joint 
Direct Attack Munitions], to be able to carry the SDB II [Small 
Diameter Bomb II], to fire its internal gun, and be able to 
carry external ordnance on the wings, as well.
    Ms. McSally. Okay. Great. And so internal and external 
ordnance on the wings would be a standard combat load at FOC?
    General Holmes. At FOC, yes, ma'am. It will have that 
capability depending on the threat. And if the threat allows it 
to, then it can carry ordnance on the outside as well under the 
wings.
    Ms. McSally. And how many bullets are in the gun?
    General Holmes. I think it is 250. I would have to----
    Ms. McSally. I think it is 180, actually. That is one 
trigger pull on the A-10, just so you know. And we got plenty 
more that--and the standard conventional load on the A-10, I am 
sure you know what this is. I mean, we got over 1,150 rounds, 
plus a variety of other weapons that we can carry.
    So if you--I mean, if you had the resources, do you agree 
that there are situations, combat situations on the ground that 
the A-10 would be best suited in order to save lives?
    General Holmes. Yes, ma'am.
    Ms. McSally. Great. Thank you. And then switching to the 
EC-130. So that--you know, the Air Force is divesting in the A-
10, EC-130, both stationed at Davis-Monthan and both in my 
district. I won't take that personally. But obviously, I am 
concerned about--concerned about losing that capability.
    So you mentioned in your testimony, but I just want to 
confirm the plan or the desire is to cut the fleet basically in 
half this fiscal year. But can you confirm, is there another 
capability in our Air Force that can do what the EC-130 does?
    General Holmes. There are areas where the EC-130's 
capabilities overlap with other capabilities that are there. 
But there are certainly things that only the EC-130 does or 
that the EC-130 does best.
    Ms. McSally. Right. And the EC-130s right now are deployed 
both to Afghanistan and in the fight against ISIS [Islamic 
State in Iraq and Syria], correct?
    General Holmes. Yes, ma'am.
    Ms. McSally. Great. And so we have nothing to replace it 
for some unique capabilities they have. They are deployed at a 
pretty high rate. You know, they have been deployed 
continuously for a long period of time, yet we are going to cut 
that capability in half.
    Is there anything in development that is going to be 
replacing the EC-130?
    General Holmes. We are considering some options to do that. 
As you know, we are embarked on a program to upgrade our JSTARS 
and replace the JSTARS aircraft. Depending on how that program 
goes, we think it might offer some options for a re-hosting of 
the EC-130 electronics, as well. We are looking at options 
where we could take the existing electronics from the EC-130 
and re-host them on another platform that would offer some 
performance advantages and be cheaper to operate in the future.
    And we will kind of see how that JSTARS program goes, and 
then see if we are able to adapt that approach to some of our 
other weapon systems.
    Ms. McSally. Okay. Thank you, sir. Do you--can you give me 
the number of what savings you project you would have by 
cutting the EC-130s in half this fiscal year? What is that 
number, do you know? You don't have to--I mean, if you could 
just get it to me, I don't need it right now.
    General Holmes. Yes, ma'am. It is roughly $470 million 
across the FYDP.
    Ms. McSally. Okay. Great. If you could give me the fiscal 
year 2016 number, that would be great.
    General Holmes. Yes, ma'am.
    [The information referred to can be found in the Appendix 
on page 97.]
    Ms. McSally. So I am sure you can appreciate that we have 
said there is a unique capability that the EC-130 brings, that 
we don't have another capability yet. We don't have anything 
necessarily under development to replace it, yet we are cutting 
it in half. I mean, can you--do you appreciate that that logic 
is concerning to those who want to make sure that we can 
protect the warfighters that are deployed?
    General Holmes. Yes, ma'am, I do. And our problem is that I 
don't have enough money to do all the things that I would like 
to provide for warfighters. And I have to make decisions within 
that. There are many areas that I have limits placed on where I 
can go to achieve savings, particularly in capacity, from 
Congress and from the Department. And so I am limited in the 
places that I can go when I have to go to capacity to save 
money.
    Ms. McSally. Okay. Thank you.
    I yield back.
    Mr. Cook. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Gentleman, I want to talk about the F-18. So the Navy, its 
testimony and also provided to this committee information that 
says by 2020 you will be short 100 F-18s. And you also said 
that this number is due to grow because of some particular 
factors.
    So in looking back at the materials that we have had before 
this committee before, all the way back to 2009, we show a 
different shortfall every program year. For example, in 2009, 
the projection was 125 aircraft. A year later it was 145. In 
2011 it was 177. In 2014 the shortfall was only 18 aircraft.
    So can you--can you tell me the credibility when I see, you 
know, 18 to 100--I mean, that is kind of a bit loose and three, 
four, fivefold difference. Why is that, and what am I not 
seeing here? Do we just think that 90--no, 82--planes will fall 
out of the sky this year? Or where are we going with this? Why 
are the numbers so dramatically different? Are we guessing, do 
we really have ways in which we are trying to figure this out?
    And it appears to me that the Navy has a--has a throughput 
problem, not a lack of aircraft, in terms of numbers. And as a 
result, should Congress be focusing on better funding the depot 
operations, rather than just buying more planes to put through 
the same--rather than to put them through inefficient depot 
repairs? What is going on here? What is the approach we need to 
be thinking about here?
    Admiral Manazir. Yes, ma'am. Thank you for the question. 
And it is a great opportunity to be able to address naval 
aviation here. I enjoyed the opportunity to chat with you last 
year about kind of the same topic.
    So I would like to discuss our strike fighter inventory 
management. From the depot throughput of our F-18A++s and 
Charlies, Bravos and Deltas, through the sustainment and 
eventual extension of the F-18E/F, which is going to occur in 
the middle of the 2020s, to the procurement of F-35C.
    Given that there are two hotlines, the F-18E, F, and G 
hotline in Saint Louis and the F-35A, B, and C hotline for the 
Department of the Navy, that would be the Bravo and the Charlie 
models down in Fort Worth, we have wonderful opportunities to 
recapitalize our force.
    The--certainly, the 2016 President's budget has increased 
risk in our ability to sustain our inventory managements. But 
to your point about numbers, we have a very, very precise 
model. And it is so precise that when you change an input, it 
will tell you exactly where your shortfall exists and in what 
year and how many.
    And so since 2009, I have been involved in this process, 
either as part of the solution, but mostly probably part of the 
problem. And as the--in this position as the director of air 
warfare, we closely manage that inventory shortfall.
    The chairman correctly described the manageable shortfall 
of 65 airplanes. In the United States Navy, we tier our 
readiness. We don't keep our readiness at the top level. That 
means we don't need all of the airplanes all of the time. We 
only support the deployed units at the top level. So we can 
manage with 65.
    When we have a shortage over the next 5 years of about 100 
aircraft, that tracks to the CNO's [Chief of Naval Operations'] 
statement that he would like to have two to three squadrons to 
reduce the risk in our inventory management of F-18s, because 
that is an additional 35 aircraft to the hundred you talked 
about.
    When you look at the strike fighter inventory management 
piece, use the word ``shortfall,'' that is a conclusive word 
that says I know what the supply is, I know what the demand is, 
and I know what my usage rate is; therefore, the formula says I 
have a shortfall and it is 135. That is if you leave everything 
identical. You don't change the supply, i.e., depot throughput 
in the near-term.
    So let's talk about that for a second. I want to make the 
depot more efficient. When we started to project the work that 
needed to be done to extend the service life of the F-18C from 
6,000 hours inspected to 8,000 hours of service life and now 
going to 10,000 hours, a 67 percent increase, we expected to do 
structural work on the airplane. What we did not expect is the 
amount of corrosion we found inside the airplanes, deep inside 
the airplanes, that were from years and years of use in austere 
environments on land, and then also in the salt air environment 
on the carriers.
    That corrosion control work was not having to be 
accomplished if we stopped flying the airplane at 6,000 hours. 
That also added work to the depots. We used a lean process in 
manufacturing to get the work done based on programmed work. 
The problem is that corrosion added unplanned work. And so the 
depots have now had to go to a theory of constraints. And they 
are very good at looking at the capacity we have in the depots. 
Use a theory of constraints method called critical chain 
project management.
    In FRC [Fleet Readiness Center] Southeast in Jacksonville, 
Florida, and in FRC Southwest at North Island, Coronado, 
California, they are putting a new process in place. Such that, 
for instance, we looked at our depot throughput and it was 
noted that our depot throughput needs to improve, we assumed 
that the depot, with all of its resources, you can put 17 
airplanes through the depot at any one time. So you have 17 
airplanes that work. An analysis using theory of constraints--
--
    Mr. Cook. Gentlemen, I don't mean to interrupt. But I am 
going to ask that you kind of shorten your answers, because we 
had a quorum called and then 15 minutes and then we are going 
to have to have votes. So everyone else, if you could kind of 
make it shorter. Okay? As I said, I apologize and I----
    Admiral Manazir [continuing]. Strike-fighter inventory 
management is very complex. Difficult short answer. Let me just 
do this. We got a new process in place. It is going to be more 
efficient. We are going to turn this around and get those 
airplanes. Then we are going extend to Es and Fs. And we still 
have the opportunity with two hotlines to be able to use that 
to reduce the risk.
    Procurement of F-35C is the other end. As we discussed, the 
Navy and the Marine Corps have to get the F-35C to win. I hope 
that answers part of the question.
    Ms. Sanchez. Well, we will discuss it out of committee. 
Thank you.
    Mr. Cook. There is going to be a test after this. We will 
see if you pass.
    Mr. Knight.
    Mr. Knight. Thank you, Mr. Chairman. I will try and keep my 
comments a little brief and just allow you to answer. To the 
Navy, I haven't heard anything about the Growler program. Are 
we on stage there, are we needing more Growlers, especially as 
the F-35 comes online a Growler is going to be a very useful 
tool with the F-35.
    Admiral Manazir. Yes, sir. As the Department of Defense's 
only airborne electronic attack airplane, that is true. Very 
useful. We integrate our capabilities with the stealth 
characteristics of the F-35C and the electronic capabilities of 
the Growler. We get a very, very good integrated piece.
    We have 153 Growlers. That is satisfactory for the Navy 
mission. We are embarking on a study, as the Chief of Naval 
Operations said, to evaluate the number we need for the joint 
mission going forward. The line still being open in Saint Louis 
keeps our options open.
    Mr. Knight. Good, good. Thank you, sir.
    To the Air Force. You know, we are in a stage where it is 
not first-sight, first-kill, it is actually first-shot, first-
kill with the fifth generation fighters.
    And with the Aerospace Innovation Initiative and of the 
change to the X-plane, oh, platforms over the last 20 years, do 
you see us still moving into an era we are going to--we are 
going to fly the wings off a fighter for the next 50 years, and 
then try and go on to the next generation and then fly the 
wings off it for 50 years, instead of moving more toward 
bringing in today's technology about every 15 years, as we used 
to do?
    General Ray. Yes, sir. Thank you for that question. The 
short answer is that we have realized how difficult it is to 
make these very lengthy aircraft programs, just as you 
mentioned. We have done a lot of thinking about this. And we do 
believe that there is a very clear need to move to a 
capabilities-based development.
    Recent efforts in the Air Force have been chartered by the 
Secretary and the Chief to allow us to take a very bold look at 
how we maintain air superiority in 2030. And the mindset there 
will be to build a learning campaign on how to aggregate the 
capabilities that we have and to put the technologies in play 
that will keep the air-to-air kill chain resilient in 2030 and 
beyond.
    We think that there is a tremendous amount of learning, 
experimentation, and prototyping that has to happen to make 
that a reality. Mr. Kendall's aircraft innovation initiative is 
a piece of that. That is a touch point for both the Navy and 
the Air Force.
    But for the Air Force's role in that particular piece, we 
are going to take a much broader look at how we do this as an 
Air Force, as an enterprise, as a family of systems. Certainly, 
there will be something that flies, something that will be in 
the battlespace. Exactly how we do that is not defined.
    But we know we need to bring the technologies that we are 
going to have to play, not the technologies that we want. So it 
will take a great deal of collaboration and learning to do that 
in time.
    Mr. Knight. Thank you, sir. And I will say one compliment 
to the F-35. It is doing very well at Edwards Air Force Base 
and hitting--hitting its test points. And almost overachieving 
in many of the areas that they didn't think it would.
    So--but my last question, Mr. Chair, with your indulgence 
is----
    Mr. Cook. Quick.
    Mr. Knight. We are going into an era where the airframe is 
going to be the biggest deal. It is not going to be the speed 
and the armament. It is going to be the airframe. And you can't 
change the airframe. So if we keep that airframe for 40 or 50 
years, we are stuck with it. And that is the change to 
innovation of how we see the aircraft, how the aircraft can get 
into enemy lines. And that will be my continued question as we 
move through this process.
    Thank you, Mr. Chair.
    Mr. Cook. Thank you. Mr. Veasey.
    Mr. Veasey. Thank you. Thank you, Mr. Chair. I want----
    Mr. Cook. And they have counted--called votes.
    Mr. Veasey. Oh, they have called votes. Okay. I will be 
just really quick.
    I just wanted to ask particularly about the inventory, the 
Joint Strike Fighter inventory. I know that we have heard 
testimony about the strike fighter shortfall of two to three 
squadrons, is two to three squadrons worth of aircraft. And is 
the Navy strike fighter inventory sufficient to support 
operational demand?
    Admiral Manazir. Sir, thank you. I will refer to the answer 
I gave to ranking minority member as for the inventory 
management.
    The F-35C numbers that the Navy and the Marine Corps needs 
are not being procured in the numbers that we need to go into 
the future. The President's budget from the United States Navy 
and United States Naval Aviation had to defer 16 F-35Cs out of 
it for fiscal reasons and priorities of the Department.
    We use 35 to 39 strike fighters a year just in utilization/
attrition. If you are not replacing 35 to 39 aircraft a year, 
you cannot sustain your inventory into the future. We are 
looking very closely at that. And we look forward to working 
with Congress on acquiring enough airplanes to meet our strike 
fighter needs.
    Mr. Veasey. Lieutenant General Holmes, last question for 
me. Can the F-35 provide the ground cover that is needed? I 
know there has been a lot of talk about, you know, the A-10 and 
the ground cover that it provides. But do you--can the F-35 
provide sufficient ground cover in the theater that troops will 
need without having an A-10 type plane?
    General Holmes. You know, thank you, sir. You heard General 
Davis talk about how the Marines feel about the F-35's ability 
to provide close air support. And I think they are comfortable 
it will be able to do so. I think we are, too. And I think the 
whole Air Force is involved in the close air support mission 
and the support of ground commanders. So the F-35 will play a 
role in that. But it won't just be the F-35. It will be the F-
35, the F-15, the F-16, and the whole Air Force enterprise can 
be devoted to that resource. And yes, sir, we feel confident we 
can continue to provide that mission.
    Mr. Veasey. Thank you.
    General Davis. If I could, sir, just to follow up on that 
from the Marine Corps side. On our inventory, we are replacing 
F-18s and Harriers that have performed exceptionally well in 
combat, but they are nearing the end of their service life. So 
the F-35B and the C--but the F-35B in large numbers for the 
Marine Corps--is keeping that aircraft on-ramp and keeping that 
in production is really important to us.
    On the--on how we will support the marines on the ground, 
we got our first-day fight, first 5 days' fight with fifth 
generation. So we can support a marine in a contested 
environment, which we can't do as well with our legacy 
airplanes right now.
    The other thing, if I--when I go to Block 3 software, I can 
actually load 14,000 pounds of external ordnance on the 
airplane. That is 3,000 pounds more than I could put on my F-18 
today. So, great. Taking a lot of ordnance to the marines and 
soldiers, sailors, where and when they need them.
    Mr. Cook. Thank you.
    Mr. Veasey. Thank you, Mr. Chairman.
    Mr. Cook. Mr. Graves, last question.
    Mr. Graves. Real quickly. And Admiral Manazir, you talked 
about the shortfall. And I am very concerned about this. When 
we have fewer airframes out there to do the job, we put a lot 
of operational fatigue on those airplanes. And you talked about 
this.
    And just for the record again, and so I can start working 
to rectify this, how many airplanes do you need, how many Super 
Hornets do you need to eliminate that shortfall? How many do 
you need to procure?
    Admiral Manazir. Sir, we need to get the F-35Cs at 20 F-
35Cs a year in 2020. But the CNO has already testified two to 
three squadrons of Super Hornets will reduce the risk to a 
manageable level. That would be 24 to 36 airplanes. And he has 
already testified to that, sir. I support that number.
    Mr. Graves. Thank you very much.
    Mr. Cook. Thank you very much. You know, I just want to 
thank the panel. I had to speed up things because of the votes 
and everything. I had a few questions. They were not five-
syllable-word questions. Since I am an infantry officer they 
were all going to be one-syllable ones. But I am sure I am 
going to see you again.
    And I do, once again, want to thank you very much. We were 
constrained. We had a lot of people, other committees. And I 
know you come over here and as I said, I appreciate your 
patience and indulgence, but most of all for your 
professionalism and for doing what you do. So stay safe, keep 
the troops safe, and we all thank you so much.
    This meeting is adjourned. Thank you.
    [Whereupon, at 9:59 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 26, 2015
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
       
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 26, 2015

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. McSALLY

    General Holmes. Ma'am, we project to save $75.1 million in Fiscal 
Year 2016 by divesting the seven EC-130 aircraft.   [See page 14.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 26, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. There has been a tremendous amount of discussion over 
the last 6-9 months in regard to acquisition reform. Can you shed some 
light on how the Congress could help make the DOD acquisition process 
more effective and efficient?
    Admiral Grosklags. Good acquisition outcomes are more probable when 
the Department can manage to a plan with a foundation of stable 
requirements, technical baselines, and budgets. Perpetual instability, 
as we have experienced over multiple budget cycles, produces a 
repeatable cycle of spiraling, self-fulfilling cost growth and program 
delays. Uncertainties as manifested in Sequestration, Continuing 
Resolutions, and other frequent changes to budgets through the annual 
authorization and appropriations process are counter to our efforts to 
effectively execute to a plan. A timely, predictable defense budget 
(ultimately, a multiple year budget) would directly increase the 
productivity of Defense acquisition; provide needed stability to the 
industrial base; and improve both government and industry's ability to 
manage outlay risk and invest in research and development, facilities, 
and people. Stable budgets also reduce government deadline pressures to 
meet artificial obligations or expenditure benchmarks that impact 
effective contract negotiations. Reducing these pressures would then 
allow the time necessary to achieve the best deal for the Department 
and the taxpayer. The DoN also recommends that Congress work with the 
Undersecretary of Defense for Acquisition, Technology and Logistics in 
his current effort to identify and roll back legislation that has 
produced unnecessary and redundant regulatory and reporting burdens to 
all of our acquisition programs.
    Mr. Turner. Last year the Navy launched another effort to develop a 
replacement helicopter to support the Presidential Executive Lift 
mission requirements. How is the Navy acquisition strategy for the VH-
92 different from the previously cancelled VH-101 program and why 
should Congress and the taxpayer believe the results will be different?
    Admiral Grosklags. The acquisition strategy for the VH-92 is 
fundamentally different from the previously canceled VH-71 program. The 
VH-71 was an extensively modified derivative of the EH-101. Changes 
included an entirely new power train, making the program essentially a 
new development effort with the inherent cost uncertainty that entails. 
Additionally, requirements were not clearly understood or communicated 
between the Navy, the prime contractor, and the principal sub-
contractor, which resulted in extensive delays and cost growth. This 
was mainly due to not having a formal process in place to review 
requirements and address potential trade-offs or proposed changes.
    The Navy has worked extensively to incorporate the lessons learned 
from the terminated VH-71 program into VH-92. Specific examples 
include:
    <bullet>  Requirements: The Navy, working in concert with the White 
House Military Office and the USMC, thoroughly reviewed all 
requirements and made appropriate trade-offs among cost, schedule and 
performance to ensure affordability while still meeting the requirement 
to provide safe and reliable transportation for the President. This 
process will remain in place during EMD as a mechanism to control 
requirement growth.
    <bullet>  Acquisition Strategy: Developing new technology is not 
part of the VH-92 acquisition strategy. Instead, a low-risk technical 
approach will reduce procurement costs as well as cost uncertainty. The 
VH-92 program will integrate mature government defined mission systems 
into an existing in-production helicopter. In addition, the VH-92 
aircraft will retain its existing FAA certification instead of 
expending resources to obtain a military certification.
    <bullet>  Procurement Strategy: The VH-92 EMD contract is a Fixed 
Price Incentive type contract as compared to the Cost Plus type 
contract of VH-71. The VH-92 EMD contract includes ``not to exceed'' 
priced options for the production aircraft.
    <bullet>  Affordability: Affordability targets were incorporated 
into the RFP and were reflected in the offeror's proposal. Current 
program estimate represents a reduction of over 50% from the VH-71 
program at time of termination.
    In summary, the Department of Navy's VH-92 acquisition strategy 
emphasizes a low-risk technical approach and a focus on affordability 
in balance with delivering the capabilities that meet the needs of the 
Office of the President.
    Mr. Turner. What are some of the key impacts to the Department of 
the Navy planning and program execution process should the Budget 
Control Act of 2011 be implemented this year (or in future years)?
    Admiral Grosklags. A return to sequestration funding levels in 
Fiscal Year 2016 would require the Department to revisit the overall 
U.S Military Strategy as sequestration would significantly impact the 
Department's ability to fully implement the President's National 
Security Strategy. As the Chief of Naval Operations testified, a 
sequestered Navy of 2020 would be unable to execute two mission sets: 
``Deter and Defeat Aggression'' and ``Project Power in an Anti-Access/
Area Denial'' environment. Any additional reductions driven by 
sequestration would further exacerbate capability gaps; delay or forego 
the development and delivery of critical warfighting capabilities; 
further reduce strike weapons capability and capacity; and further 
reduce overall force readiness.
    Mr. Turner. Readiness of the Armed Forces has been a much talked 
about topic over the past few weeks. The Commandant testified just last 
week in front of the HASC and stated that the Marine Corps is being 
forced to prioritize the readiness of its deployed and next-to-deploy 
units to the detriment of its home station units. How has this affected 
Marine Corps Aviation?
    General Davis. Marine Aviation is balancing risk in today's 
capacity to obtain tomorrow's capability, but we have only been able to 
maintain the near-term readiness of our deploying squadrons at the cost 
of our next-to-deploy and non-deployed squadrons. Our ``bench'' is 
barely able to meet training requirements ``just in time'' for 
deployment. Most of our squadrons do not possess the required number of 
aircraft, down more than 150 aircraft (20%) from our wartime inventory. 
Our squadrons have the right number of Marines, but not enough of them 
are trained due to high operational tempo and lack of aircraft.
    Marine Corps operational commitments have increased while the 
overall numbers of Marine aircraft available for tasking and training 
have decreased. In 2003, at the outset of Operation Iraqi Freedom 
(OIF), Marine Aviation had 58 Active Component (AC) squadrons 
(maintaining T-2.0 readiness at an average of 1:3 deployment to dwell) 
and 12 Reserve Component (RC) squadrons for a total of 70. Today the 
Marine Corps has 55 AC and 4.5 RC squadrons, more than 10 fewer, with 
an average T-rating of 2.7 and many communities deploying at greater 
than 1:2 deployment to dwell. Marine Corps Aviation squadrons are 
surging in order to meet the new steady-state demand creating a ready 
bench that is too shallow and unable to recover. Our FA-18s and 
Harriers are wearing out faster than we can replace them with F-35s 
because of its shallow procurement ramp. We have reduced our squadron 
inventory of CH-53Es from 16 to 12 because we simply do not have the 
aircraft anymore and cannot build the CH-53K fast enough. After years 
of underfunding readiness accounts, we are surging our old gear to 
fight the nation's battles and have not been able to buy the new 
machines as quickly as we need to replace them. Ultimately, Marine 
Aviation is still able to meet all of its operational commitments, but 
we have reached a point of diminishing returns and readiness will track 
in a negative direction unless we change the way and degree to which we 
fund our readiness accounts.
    Mr. Turner. General, you have been one of the most vocal advocates 
for the F-35 program. Why do you see the F-35 as so important to the 
Marine Corps and where do you see it fitting into your overall aviation 
picture?
    General Davis. The F-35B is the future of Marine Corps TACAIR. At 
IOC, scheduled for this summer, it will bring immediate capability 
advancement to the Marine Air Ground Task Force. The F-35's ability to 
see and be seen, or not be seen, as the case may be, has exceeded the 
Key Performance Parameters requirements. Included in the F-35's ability 
to see, is its ability to use its next generation radar to produce 
photo quality targeting images of the ground through the weather. 
Immediately upon IOC we can operate and support the warfighter on the 
ground in contested environments and our targeting capabilities will 
not be inhibited by bad weather. Both the stealth design and advanced 
radar, allowing targeting through the weather, are not capabilities of 
our legacy aircraft today. From IOC onward, the jet will only continue 
to improve, as has always been the plan. Some examples of these are: 
sensor fusion improvement, weapons capability improvement, pilot work 
load decrease, which improves situational awareness and reduces 
training time, a significant cost benefit to the taxpayer. The F-35 
will represent a transformation for the Marine Air Ground Task Force 
because it provides electronic attack, disseminates battle space 
information over data link, the MAGTF's server in the sky, and once we 
reduce the threat to the point where stealth is not required, it can 
carry external ordinance. The F-35 becomes a 4th generation bomb truck 
carrying 14,000 pounds of ordnance, far more than both the Marine Corps 
legacy Harrier and Hornet. In essence, the F-35 is the only TACAIR 
platform that can transition from 5th generation to 4th generation 
capabilities and then back again. I can't make a 4th generation 
aircraft a 5th generation one. This aircraft will replace the AV-8B 
Harrier, F/A-18 Hornet, and EA-6B Prowler, the entirety of the Marine 
Corps TACAIR legacy fleet. This will dramatically increase our 
capability now and give us a platform that will only continue to 
improve over time. It cannot be overemphasized how critical this 
aircraft is for our modernization and readiness efforts as we only see 
an increase in demand for Marines around the globe.
    Mr. Turner. The CH-53K was one program that the Commandant chose to 
break out in his testimony over the past several weeks. Why do you see 
this as a key Marine Corps Aviation program?
    General Davis. The CH-53K is urgently needed for the modernization 
and readiness initiatives the Marine Corps is implementing. We have 
seen a sustained and unprecedented operational demand for our legacy 
heavy lift assault CH-53E fleet, which has prematurely aged an airframe 
that is on average 26.8 years old, making it ever more challenging to 
maintain. There are currently 149 CH-53Es in the USMC inventory, 47 
aircraft short of the requirement to sustain the fleet until 2030, 
directly decreasing our readiness. Capable of operating from land and 
sea bases, the CH-53K will provide the USMC and DOD with the only heavy 
lift rotorcraft in the Joint Force. It will contribute directly to the 
increased agility and lethality of the MAGTF and Joint Force. The CH-
53K will transport 27,000 pounds of external cargo out to a range of 
110 nautical miles, nearly tripling the CH-53E's lift capability under 
high/hot environmental conditions, while fitting into the same 
shipboard footprint. The CH-53K will also provide unparalleled lift 
capability, greatly expanding the commander's operational reach. The 
atrophy of the CH-53E's heavy lift capability and readiness, the 
limited CH-53E inventory and the rising cost of CH-53E flight hours 
clearly underscores the importance of its replacement, the CH-53K King 
Stallion.
    Mr. Turner. It is well publicized that the F-18 has had numerous 
issues with delays in depot level maintenance. What do you see as the 
way forward to remedying the Marine Corps strike fighter shortfalls? 
How are you doing in this regard with your other Marine aviation 
platforms?
    General Davis. The Marine Corps is taking a dual pronged approach 
to this very serious issue. It's absolutely critical that we maintain 
the F-35B and F-35C aircraft procurement ramp to transition the USMC 
TACAIR force on timeline and thereby eliminating the USMC long term 
strike fighter shortfall. Our next F/A-18 squadron to transition to the 
F-35B is VMFA-122. In addition to increase our current readiness and 
decrease the near term flight line gap, the Marine Corps is deeply 
integrated within the Naval Aviation Enterprise to increase depot 
throughput via hiring artisans, leveraging Original Engineering 
Manufacturer (OEM) maintenance and engineering, and increasing material 
solutions.
    On this note, the Fiscal Year 2016 President's Budget request 
provides funding to align F/A-18 depot throughput to projected capacity 
and continues to fund the procurement of F-35s for the Marine Corps.
    In 2014, DON leadership incorporated a multifaceted strategy to 
improve F/A-18 depot efficiency and throughput. The current constraints 
to the Hornet line are both manpower and material related. The strategy 
addresses these issues with an aggressive hiring and training plan for 
artisans and engineers, kitting of materials for the high flight hour 
(HFH) events based on common repair requirements, and the 
implementation of an enterprise-wide improvement to production flow 
using a theory of constraints method called critical chain project 
management. Additionally, the DON has collaborated with Boeing in 
identifying several areas to improve overall depot throughput, such as 
employing Boeing Engineering Support and incorporating the use of its 
Cecil Field facility. The strategy is proving successful as depot 
production levels are improving. With the requested funding, and under 
this plan, the Department anticipates continued improvement in depot 
throughput to meet annual production requirements by FY17 and full 
recovery by FY19.
    A return to sequestration in FY16 is also a recurring concern. The 
Department requires a stable budget to meet these objectives. 
Sequestration and the compound effects of the 2013 government shutdown 
drove manning shortfalls for both artisans and engineers and hampered 
the DON's ability to respond to unplanned work found during HFH 
inspections. Sequestration and subsequent manpower shortfalls in turn, 
exacerbated the F/A-18's depot aircraft backlog.
    Any further reductions in the depot maintenance, engineering and 
contractor support budgets below requested levels will impede the depot 
throughput improvement strategy. A return to sequestration would have a 
compounding effect that will further increase risk in our strike 
fighter inventory management strategy and reduce the availability of 
warfighting assets.
    Mr. Turner. The Marine Corps is said to be our Nation's air-ground 
force in readiness. What can you tell us about the overall readiness of 
Marine Aviation?
    General Davis. Marine Aviation does not have the numbers of ready 
aircraft required for training and warfighting (106 and 158 short, 
respectively) or the numbers of trained and qualified personnel to fill 
out our structure. Of our 56.5 Active and Reserve Component Squadrons, 
we only have enough aircraft and qualified personnel to field 46 
squadrons. We have only been able to maintain the near-term readiness 
of our deploying squadrons at the cost of our next-to-deploy and non-
deployed squadrons. Our ``bench'' is barely able to meet training 
requirements ``just in time'' for deployment. We have embarked on a 
comprehensive readiness recovery effort in Marine Aviation. That 
effort, while relying on a predictable and steady recapitalization of 
our new aircraft, attacks the readiness problems of our legacy fleet 
aggressively. Our readiness shortfall, 158 combat aircraft shy of the 
requirement, a mix of every type, model, series we fly, can be 
rectified in a four year timeframe provided our readiness accounts are 
fully funded.
    Mr. Turner. The CNO has testified you have a strike fighter 
shortfall of 2-3 squadrons' worth of aircraft. Is the Navy strike 
fighter inventory sufficient to support operational demand?
    Admiral Manazir. The Department of the Navy actively manages the 
strike fighter inventory to support operational demand. We remain 
challenged with end of life planning for F/A-18 aircraft that reach the 
end of their service life before replacement aircraft (F-35B/C) are 
delivered into service. Consequently, strike fighter inventory 
management risk increases with the Fiscal Year 2016 President's budget 
submission, further increasing the gap between aircraft supply and the 
Department's Master Aviation Plan demand.
    The Department's strike fighter inventory management strategy 
should be viewed in two separate and distinct phases. The near-term 
(2015-2020) challenge is a result of reduced strike fighter aircraft 
procurement, higher than planned TACAIR utilization rates, and F/A-18A-
D depot production falling short of the 2013 and 2014 required output. 
In 2014, aggressive efforts were instituted across the Department to 
improve depot productivity and return more aircraft back to service. As 
a result, aviation depots are expected to improve throughput to meet 
annual production requirements by FY 2017 and fully recover by FY 2019, 
at which time the workload will begin including F/A-18E/F service life 
extension efforts. In the far-term (2020-2035), strike fighter 
inventory management is predominantly affected by new aircraft 
procurement, specifically the F/A-18E/F and F-35. Far-term inventory 
risk will remain high as COCOM-driven operations and Fleet Response 
Training Plan training and readiness requirements continue to place 
excessive demand on the inventory, resulting in strike fighter 
utilization rates that exceed the projected requirement.
    Mr. Turner. The Navy has delayed procurement of 49 F-35C over the 
past 2 years. Is the Navy still committed to the JSF?
    Admiral Manazir. The Navy remains fully committed to the F-35C. The 
aircraft is critical to the success of our future carrier air wing by 
providing a 5th generation strike fighter capability that includes low 
observable technology and data fused sensors to outpace future threats, 
assure access, and improve responsiveness. The program is on-track to 
achieve initial operating capability (IOC) as scheduled in August 2018 
and recently completed a highly successful developmental test period 
(DT-1) aboard USS NIMITZ in November 2014, meeting all scheduled test 
objectives. The Fiscal Year 2016 President's budget request (PB16) 
enables System Design and Development (SDD), Developmental and 
Operational Test and Evaluation, and procures low rate initial 
production aircraft to support Fleet Replacement Squadron (FRS) 
standup. PB16 increases FY16 procurement from two to four aircraft, but 
accepts long-term risk in F-35C capacity due to fiscal constraints.
    Mr. Turner. We have heard the CNO testify that he has accepted risk 
in weapons procurement with the FY 16 budget request. Is the Navy 
maintaining sufficient aviation weapons to satisfy operational 
requirements?
    Admiral Manazir. The Navy accepted risk in weapons procurement 
levels to focus efforts on the development of future capabilities at 
the expense of inventory capacity. Under the current constraints, the 
Fleet maintains a sufficient inventory to meet operational 
requirements, but the overall ordnance capacity contributes to 
increased risk in accomplishing two primary Defense Strategic Guidance 
missions: Deter and Defeat Aggression and Project Power Despite Anti-
Access/Area Denial (A2/AD) Challenges. Furthermore, the decision 
assumes risk in training weapons inventory capacity to satisfy 
operational requirements.
    Mr. Turner. We have noted that the Navy plans to recapitalize the 
carrier onboard delivery (COD) mission with a variant of the V-22. What 
was the rationale behind this decision?
    Admiral Manazir. The 35 remaining C-2A aircraft are nearing the end 
of their service life and becoming increasingly more expensive to 
operate. Accordingly, the Navy identified the need for a solution to 
the future Carrier Onboard Delivery (COD) mission capability.
    Between 2004 and 2013, the Navy performed a series of analyses that 
identified the COD capability as a critical force enabler requiring a 
material solution. They concluded that a manned carrier-based logistics 
aircraft was the preferred material concept, and that ``off-the-shelf'' 
solutions were available. The analyses also found that a force 
structure of 44 C-2 or V-22 class aircraft is required to conduct the 
COD mission into the future. Additionally, the latest analysis 
determined that a COD mission solution is required no later than 2026.
    In 2012, an update to the 2005 Analysis of Alternatives (AoA) 
focused on the cost estimates for the six most likely alternatives. The 
analysis concluded in part that transferring the COD mission to the V-
22 as part of the existing Program of Record was a viable and cost-
effective option that provided the Navy the ``best value'' solution. 
This funding was validated by the Office of the Secretary of Defense, 
Cost Assessment and Program Evaluation (OSD CAPE) in December 2012. 
Following validation, an underway Military Utility Assessment (MUA) was 
performed in June 2013 onboard the USS HARRY S. TRUMAN (CVN 75). This 
assessment demonstrated that the V-22 is an effective, flexible and 
safe platform to conduct the COD mission from an aircraft carrier.
    Based on in-depth analysis and demonstrated capability, the 
Department of the Navy selected a variant of the V-22 as the solution 
to recapitalize the COD mission aircraft. This decision includes an 
acquisition strategy which funds the existing V-22 Program of Record to 
procure 44 COD mission aircraft. This approach takes advantage of an 
existing full-rate production line, captures potential multiyear 
procurement savings and capitalizes on the benefits of operating a 
common joint-service aircraft. Overall, this decision is the most 
affordable solution with the least risk to meeting Navy requirements.
    Mr. Turner. Does the Navy have enough EA-18G aircraft to satisfy 
Navy and Joint requirements?
    Admiral Manazir. The Navy has the inventory of EA-18G aircraft we 
need to support current Navy Airborne Electronic Attack (AEA) mission 
requirements.
    There is a study in progress to identify Joint warfighting 
requirements, Concept of Employment (CONEMPS) and future mission sets. 
The results of this study are expected to be released this summer and 
will provide insight that will allow the Department to determine the 
necessary force structure to meet all DOD requirements for Airborne 
Electronic Attack rather than just those requirements unique to the 
Navy.
    Mr. Turner. Is the Air Force considering a philosophical shift 
toward a joint acquisition approach to procuring ``capabilities-based 
platforms'' instead of ``platform-based capabilities''?
    General Ray. Yes, the Air Force is exploring a more ``capabilities-
based'' development planning process that includes multiple mission 
areas and functional domains vice a specific core function. As the AF 
leadership has stated, we can no longer afford to develop weapon 
systems based on traditional linear acquisition processes. Instead, we 
will focus first on developing strategic, enterprise-wide Air Force 
capabilities before establishing formal programs. Conducting strong and 
effective cross-core function, multi-domain development planning gives 
the best opportunity to leverage emerging technologies.
    To that end, the AF has chartered an Enterprise Capability 
Collaboration Team (ECCT) to deliver a capability development plan for 
our future Air Superiority capability needs--a plan that prescribes an 
agile and adaptive way forward to solve our toughest enterprise-wide 
challenges. This is intended not to be another bureaucratic ``process 
improvement'' or re-organization effort but is expected to focus and 
consolidate the AF's current efforts and processes to develop game-
changing technologies that deliver enterprise-wide effects. While these 
improved processes have a joint foundation and include joint threat 
assessments in the planning, they are not always intended to produce a 
joint solution--one design/derivative solution for multiple services.
    The AF is starting with Air Superiority 2030 as our first endeavor 
however the AF leadership plans to apply this approach to other AF 
strategic challenges to ensure we are agile and adaptive and maintain 
our status as the World's most capable Air Force.
    Mr. Turner. Do you have any concerns about the aerospace industrial 
base in the United States in regards to them being able to meet our 
current and future national security requirements?
    General Ray. Since the great industrial mobilization for World War 
II, the nation has benefitted from a robust industrial base supported 
by sustained public and private investments. Today's aerospace 
industrial base underpins the Air Force's ability to provide Global 
Vigilance, Global Reach, and Global Power for the nation and our 
allies. The Air Force and the nation have been fortunate in that many 
advances in civil and military aerospace technologies are mutually 
beneficial. For example, advances in turbine engine technology enable 
commercial aircraft to fly longer routes while these same advances 
extend the combat radius of tactical aircraft. There are similar 
examples in other areas such as electronics, metallurgy, and composite 
materials. The result of the sustained pattern of public and private 
investment is a robust aerospace industrial base, with a favorable 
trade balance of over $60 billion, fully capable of meeting current 
national security requirements.
    Looking ahead, there are areas for concern. While today's Air Force 
is the smallest and oldest in our history; it is fully committed around 
the globe. As the Air Force has become smaller over time, our demands 
on the industrial base have lessened. In response, industrial capacity 
has fallen, potentially leading to the loss of industrial capability. 
Quite simply, no company can afford to keep empty facilities or a 
workforce with no work to do. Our ability to make informed judgments 
over the potential ability of the aerospace industrial base to support 
future national security requirements is clouded by fiscal 
uncertainties, resulting in part from the Budget Control Act.
    While the Air Force and the Department of Defense can lessen the 
risk through programs such as Aviation Innovation Initiative and the 
Adaptive Engine Technology Development effort, these do not fully 
address the national commitment required to sustain this nation's role 
as the global technical leader in military aerospace.
    Mr. Turner. Do you have any concerns about the intellectual pool of 
scientists and researchers that make the United States their home, and 
have historically contributed so much to our national defense?
    General Ray. Yes, the Air Force is concerned about recruiting and 
retaining scientists, researchers and engineers. The domestic scientist 
and engineering workforce has been sustained by research, development, 
test, and engineering (RDT&E) funding from the government, private 
industry, and academia. This pool of skilled workers have historically 
contributed to our National Defense through in-house efforts as well as 
the ``spin-in'' of commercial technology and talents into military 
applications and the ``spin-out'' of military technology and personnel 
into the commercial sector. Retaining and refreshing the science and 
engineering workforce has enabled the military to maintain its 
technological edge and sustain an intellectual and industrial base to 
innovate, design, field, and maintain systems for the warfighter. 
Uncertain federal budgets coupled with alternatives to traditional 
employment present many challenges for recruiting and refreshing the 
Air Force science and engineering workforce. Internet, social media, 
and other new industries with limited or no application to military 
applications are attracting S&E graduates. Both industry and government 
continue to have challenges attracting and retaining experienced 
scientists and engineers. The Air Force addresses these challenges by 
conducting science, technology, engineering and mathematics (STEM) 
outreach around Air Force base communities. The Air Force conducts over 
150 STEM outreach events per year, leveraging local, state and federal 
organizations to reach over 100,000 students and teachers. The Air 
Force has successfully leveraged the Science, Mathematics and Research 
for Transformation scholarship for service program to build its STEM 
workforce across the Air Force. In addition, the Air Force research 
community actively engages academia in numerous research partnerships 
to tackle Air Force priorities; to include providing grants to 
applicants for higher education in vital research domains through the 
National Defense Science and Engineering Graduate Fellowship program. 
Furthermore, the Air Force has codified its STEM workforce goals in 
Bright Horizons 2.0, the Air Force STEM Workforce Strategy. Bright 
Horizons 2.0 outlines strategic goals to institutionalize STEM 
workforce planning and force management to build and maintain a highly 
competent, diversified and agile workforce.
    Mr. Turner. We understand that just this past week that the Air 
Force has released requirements for a replacement to the T-38 pilot 
training aircraft, called the T-X. There is a bow-wave of acquisition 
costs that seem to be piling up at once. How is the Air Force going to 
control costs and execute a successful T-X acquisition program among 
others and avoid a repeat of previous programs where the Air Force was 
overly optimistic concerning cost, schedule, and performance?
    General Ray. T-X is at the forefront of implementing the 
acquisition improvements known as Better Buying Power, Strategic 
Agility, and Bending the Cost Curve. These initiatives will ensure the 
Air Force gets the best value system solution while replacing its aging 
fleet of T-38 aircraft and associated Ground Based Training Systems 
(GBTS). From program inception, the Air Force has actively communicated 
with industry to identify TX system requirements utilizing mature 
technology to provide a realistic training experience for the pilots of 
4th and 5th generation fighter aircraft. The combination of training 
system maturity, early requirement definition, and the number and 
variety of offerings expected will help maximize competition and reduce 
government cost. Applying the principles of Strategic Agility during 
the acquisition will ensure the Air Force retains the flexibility to 
upgrade training systems technology as pilot training requirements 
evolve over the life of the system.
    Mr. Turner. If the Air Force had the money, would it retain A-10s 
in the inventory? If Congress provides funds for retaining the A-10, 
what are the advantages of retaining A-10s in the Air Force inventory 
from a capability and capacity perspective?
    General Holmes. If Congress provided additional funds above the 
FY2016 President's Budget request, the Air Force would use these funds 
to address higher priority challenges including fighter force 
recapitalization and modernization required to meet the demands of new, 
more capable threats, along with weapons capacity and readiness 
shortfalls that would enable us to implement the Defense Strategic 
Guidance at lower risk. Retaining the A-10 fleet would provide some 
operational tempo relief to other close air support-capable aircraft in 
our inventory. However, continuing to operate and maintain the A-10 
fleet limits our ability to address existing capability and readiness 
challenges.
    Mr. Turner. We understand that the Commander of First Air Force has 
submitted an urgent operational need, or UON, for new radars on the F-
16 fleet that conducts the aerospace control alert mission, and that 
this UON is now being evaluated by the Joint Staff. Does the Air Force 
have a plan to upgrade radars for the aerospace control alert F-16 
aircraft?
    General Holmes. Yes, the Air Force is working with the Joint Staff 
to get a fully approved Joint Urgent Operational Need for F-16 Active 
Electronically Scanned Array (AESA) radars for a portion of our fleet. 
The initial fielding will focus on units protecting the National 
Capital region; additionally, the Air Force is exploring options to 
expand the AESA deployment to other units performing the aerospace 
control alert mission.

                                  [all]
</pre></body></html>
